  Office of Inspector General
       Audit Report


 FHWA PROVIDES SUFFICIENT GUIDANCE AND
  ASSISTANCE TO IMPLEMENT THE HIGHWAY
SAFETY IMPROVEMENT PROGRAM BUT COULD
  DO MORE TO ASSESS PROGRAM RESULTS

        Federal Highway Administration

         Report Number: MH-2013-055
         Date Issued: March 26, 2013
           U.S. Department of
                                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FHWA Provides Sufficient Guidance                                      Date:    March 26, 2013
           and Assistance To Implement the Highway Safety
           Improvement Program but Could Do More To
           Assess Program Results
           Federal Highway Administration
           Report Number MH-2013-055

  From:    Joseph W. Comé                                                              Reply to
                                                                                       Attn. of:   JA-40
           Assistant Inspector General
             for Highway and Transit Audits

    To:    Federal Highway Administrator

           Reducing the number of fatalities and serious injuries on our Nation’s highways
           continues to be a top safety priority for the Department of Transportation (DOT).
           The Federal Highway Administration’s (FHWA) Highway Safety Improvement
           Program (HSIP) is the primary DOT program for reducing fatalities and serious
           injuries on roadways through infrastructure improvements, such as guard rails or
           rumble strips. HSIP has received approximately $8.4 billion in funding from 2006
           through 2011. The current surface transportation authorization, the Moving Ahead
           for Progress in the 21st Century Act (MAP-21), 1 continues HSIP and increases its
           funding to roughly $2.4 billion per year for the next 2 years. Given the major
           contribution HSIP is intended to make to highway safety and the large funding
           levels involved, we initiated this audit to assess whether FHWA (1) provides
           sufficient guidance and assistance to enable the States to effectively implement the
           data-driven, performance-based approach called for in HSIP legislation and
           (2) evaluates HSIP results, which States report to FHWA annually, to determine
           the program’s impact.

           To conduct our audit, we reviewed laws, regulations, and guidance pertaining to
           HSIP and interviewed FHWA Office of Safety staff responsible for the program.
           We collected and evaluated the annual reports submitted by each of the 50 States
           and the District of Columbia in 2011 to determine how responsive States were to
           HSIP requirements and guidance. Based on this information, we interviewed
           1
               The Moving Ahead for Progress in the 21st Century Act (MAP-21), Pub. L. No. 112-141 (2012).
                                                                                                                2


FHWA Division and State transportation officials about program implementation
from a statistically selected sample of nine of 51 States. We also reviewed
different methods States used to identify the impact of HSIP-funded projects and
those the FHWA Office of Safety used to evaluate the impact of HSIP nationally.
We conducted our work between February 2012 and January 2013 in accordance
with generally accepted Government auditing standards. Exhibit A provides more
detail on our audit scope and methodology.

RESULTS IN BRIEF
FHWA provides sufficient guidance and technical assistance to the States to
implement HSIP in accordance with current requirements that permit substantial
State flexibility. As required by law, States used safety data to select HSIP
projects and develop performance-based programs. Overall, our review of States’
2011 HSIP reports found that 98 percent of States met program requirements and
92 percent followed FHWA’s program guidance on reporting. This guidance is
widely available on the Agency’s website and covers collection and use of
highway safety data, development of Strategic Highway Safety Plans (SHSP), 2
and reporting. FHWA also provides technical assistance and training on program
implementation through its Division Offices; webinars; and the Roadway Safety
Peer-to-Peer Program, which connects State transportation agencies seeking best
practices or technical assistance with experts in other States. As a result, States
have the guidance and assistance needed to meet basic program requirements
while retaining the flexibility to implement HSIP to address State-specific
highway safety needs.

FHWA periodically evaluates HSIP results and other traffic safety information
reported by the States, but conclusions from these evaluations are limited and
FHWA does not have an effective way to regularly use program data to report
HSIP results nationwide. This is largely because States provide varying types and
quantities of data to FHWA in their annual HSIP reports, even though the States
all met the current legal reporting requirements on what information to include.
For example, some States report crash data for every location receiving HSIP
funds while others report aggregated crash data for all locations. The Safe,
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users
(SAFETEA-LU) 3 made these data reporting requirements less prescriptive in 2005
than the prior law, 4 and they were not altered by MAP-21. Also, the effect of
specific HSIP-funded infrastructure improvements is difficult to isolate from other

2
    Each State is required to develop a SHSP to identify highway safety performance goals and a project selection
    process.
3
    The Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU), Pub. L.
    No. 109-59 (2005).
4
    The Transportation Equity Act for the 21st Century (TEA-21), Pub. L. No. 105-178 (1998).
                                                                                                     3


infrastructure and behavioral factors that also contribute to crashes, fatalities, and
serious injuries with the modeling tools currently available. FHWA has efforts
underway to address data inconsistencies, such as an optional online reporting tool
launched in 2011 to standardize how annual HSIP reports are collected from the
States. However, State officials have cited problems with using and accessing the
tool. Moving forward, MAP-21 will eventually require more consistency in safety
data collection outside of HSIP to assess progress toward new national safety
goals and related performance measures. FHWA could use this data, in
combination with information on HSIP projects and obligations, to improve
evaluations of HSIP’s national results.

We are making recommendations to further enhance FHWA’s ability to (1) collect
consistent, useful information with the online reporting tool and (2) more
accurately assess HSIP’s national impact.

BACKGROUND
States administer HSIP, with oversight from the FHWA Division Offices. Program
rules and guidance are provided by the FHWA Office of Safety, which also
coordinates technical assistance. Each State has developed a SHSP to describe a
program of strategies to reduce or eliminate safety hazards. States annually submit
HSIP reports to FHWA Division Offices, detailing their progress toward meeting
safety goals and strategic areas, which are finally submitted to the FHWA Office
of Safety. A variety of public roadway safety improvement projects are eligible for
HSIP funding and may be federally funded at either 90 percent or 100 percent. For
example, a State could use HSIP funds to reduce horizontal curve crashes by
implementing warning signs, median barriers, or guard rails. FHWA also helps
States focus on improved data collection, using data to identify problems, and
analytical tools and processes to identify and prioritize safety projects.

SAFETEA-LU mandated that States improve the accuracy, completeness,
uniformity, and accessibility of crash data needed to identify safety priorities for
all public roads. States were required to develop performance goals (e.g., decrease
impaired driving by 5 percent) and implement a crash data system but were no
longer required to do project assessments for HSIP. 5 The structure of HSIP was
not significantly altered by MAP-21. FHWA guidance still includes best practices
for project assessments—including how many years of data should be reviewed
before and after an improvement is made to look for impacts on crashes, fatalities,
and serious injuries.




5
    Law pertaining to the Highway Safety Improvement Program is codified at 23 U.S.C. §148 (2005).
                                                                                                                   4


FHWA PROVIDES SUFFICIENT GUIDANCE AND ASSISTANCE TO
THE STATES TO IMPLEMENT HSIP
The FHWA Office of Safety provides sufficient guidance and technical assistance
to the States to implement HSIP in accordance with current requirements that
permit substantial State flexibility. The effectiveness of this guidance and
assistance is reflected by the high level of compliance with requirements that we
found among annual reports prepared by the States.

FHWA Provides States with Substantial HSIP Guidance and Support
To Implement HSIP
FHWA provides extensive written guidance on use of highway safety data,
development of SHSPs, and reporting that is widely available on its website and
routinely used by the States in key areas of HSIP implementation. Exhibit B
provides more examples of FHWA’s guidance. The guidance is oriented to
meeting legal requirements and promoting best practices. For example, FHWA’s
HSIP reporting guidance describes required elements and suggests effective data
reporting formats. The reporting guidance also suggests four sections the States
should include in their annual reports: (1) HSIP program structure, (2) progress in
implementing HSIP projects, (3) assessment of the effectiveness of the
improvements, and (4) information on the High Risk Rural Roads program. This
integrated approach to information about reporting, as well as other topics covered
by FHWA’s HSIP guidance, allows for an organized but accessible collection of
centralized, written guidance that States may use.

FHWA provides technical assistance and best practices for implementing HSIP to
the States through its Division Offices, the Roadway Safety Peer-to-Peer
Program, 6 and FHWA Office of Safety web-based training courses. State officials
we interviewed used these resources and found them useful. Specifically, these
officials reported that they routinely received assistance from Division Offices in
interpreting requirements or FHWA guidance and also had positive experiences
with the Peer-to-Peer Program as either providers or recipients of information
about best practices. For example, one State developed a robust highway safety
data trend analysis process, which it provided to several States through this
program. The FHWA Office of Safety also shared technical assistance with the
States by creating and posting a series of webinars on the program website.




6
    The Roadway Safety Peer-to-Peer Program is a component of HSIP managed by the FHWA Office of Safety. The
    program is used to facilitate communication between States to share best practices, examine specific problems, or
    conduct peer reviews of State HSIPs.
                                                                                                           5


States’ Annual Reports Reflect Overall Compliance With FHWA’s
HSIP Requirements
The effectiveness of FHWA’s guidance and assistance is reflected by States’ high
level of compliance with requirements. All annual reports that States and the
District of Columbia submitted in 2011 met statutory requirements, 7 and reports
from 50 of 51 States 8 (98 percent) met the more detailed requirements issued by
the agency. 9 Reports from 47 of 51 States 10 (92 percent) were consistent with
FHWA’s reporting guidance.

Consistent with HSIP program requirements, the States were collecting required
data on crashes, fatalities, and injuries and using it to select HSIP projects in a
data-driven manner. All States reported highway safety trends, and 27 States
provided additional information on project assessments that was not required. For
example,

     • Wisconsin provided a summary of the results of evaluations, which used the
       data-driven practices provided by FHWA guidance, for its HSIP projects
       completed in fiscal year 2008. Each project had a benefit-cost analysis within a
       defined period. Projects were broken down by project type, and the State used
       crash data from the before and after project periods to develop benefit-cost
       ratios. These evaluations were also aggregated by safety improvement type to
       help provide an overall summary of progress. All crashes in the before and
       after periods were categorized by crash severity, injury severity, and type of
       collision.

     • Iowa conducted and provided FHWA with the results of a HSIP effectiveness
       assessment. The assessment provided crash data for projects that were
       evaluated based on 7 fiscal years (2001 to 2007) for sites modified by 43 HSIP
       projects. The State compared injury and crash data for these specific locations
       3 to 5 years before and after the HSIP project was completed. Information on
       road type, improvement type, fatalities, serious injuries, minor injuries,
       possible/unknown injuries, and property damage was also provided, and the
       State used this information with project cost information to calculate benefit
       cost ratios.




7
     23 U.S.C. §148 (2005).
8
     Wyoming did not meet a CFR requirement to include information on the High Risk Rural Road Program in its
     annual HSIP report.
9
     23 C.F.R. Part 924.
10
     Maine, Oregon, Texas, and Wyoming did not follow all elements of FHWA’s guidance for annual reports.
                                                                                                                       6


FHWA CONDUCTS LIMITED EVALUATIONS OF STATE
REPORTED HSIP DATA TO REPORT ON THE PROGRAM’S
IMPACT
FHWA uses information provided by the States in their annual reports to
periodically evaluate aspects of HSIP, but the results are limited and FHWA does
not regularly report on the program’s national impact. This is largely because the
information FHWA receives in States’ annual HSIP reports varies from State to
State even though it meets program requirements. In addition, it is difficult to
isolate the effect of specific HSIP-funded projects on improving traffic safety.
FHWA has efforts underway to address data inconsistencies, which will be
important given broader requirements beyond HSIP in the new highway
reauthorization, MAP-21.

FHWA’s Evaluations of HSIP Are Limited Due to Inconsistent Data
from the States and the Difficulty of Isolating HSIP’s Safety Impact
The information FHWA receives in the annual HSIP reports meets program
requirements, but each State varies in the type and amount of data it includes.
Specifically, the States vary in their crash and safety data collected, performance
metrics, and methods used for project selection, evaluation of results, and data
analysis. With inconsistent information, FHWA periodically uses States’ annual
reports to identify best practices and challenges, such as States using more robust
data analysis methods. However, FHWA does not regularly compile and report
HSIP data such as number, type, and cost of projects that could be used to show
the national results of the program to stakeholders, Congress, or the public. For
example, in fiscal year 2011, States obligated $1.5 billion to 4,402 projects
through HSIP, but FHWA does not report State-specific information on project
categories or costs. 11 Without such information, FHWA cannot conduct multi-
year, national comparisons of project types, spending levels, and program results.

Fatality and serious injury data provide an example of inconsistent data collection
and reporting among the States from the 2011 annual HSIP reports. Among the
annual reports we reviewed, some States reported fatality and serious injury data
for every HSIP-funded project, while other States provided aggregate data12—
limiting FHWA’s ability to compile results, make comparisons, and assess State-
wide or highway system-wide improvements. Much of the inconsistencies in
reported data stem from the less detailed reporting requirements under SAFETEA-


11
     Among 11 States that reported this information, intersection safety, pavement improvement, and barrier installations
     were among the most common project types.
12
     For example, some States reported fatality and serious injury data for every HSIP-funded project, from 2006 to 2010,
     while other States provided aggregate data for assessing State-wide or system-wide improvements.
                                                                                                          7


LU, which were retained in MAP-21, and a related Agency rule. 13 States have
great discretion in implementing HSIP, particularly as to how or even if the State
evaluates projects and its HSIP program.

For example, prior to SAFETEA-LU, assessments of HSIP-funded projects were
required, but after the SAFETEA-LU changes were implemented in 2009 by
FHWA through a 2008 rule, they were made optional. After the 2008 rule, one
State began conducting fewer project assessments and no longer reports before
and after assessments of its HSIP projects. By 2011, only 27 States included
optional information for individual assessments or comparison of costs and
benefits for HSIP-funded projects. However, even among the reports that included
project assessment information there was inconsistency in the number of projects
assessed or in the duration of the before or after period used to conduct the
assessments. For example, before and after periods ranged from 2.5 months to
5 years even though FHWA guidance recommends—but does not require—a
minimum of 3 years of crash data for these types of project assessments.

Inconsistent types and amounts of data across various time periods cannot be used
to make useful comparisons of HSIP implementation among States or across the
years. For example, one State official stated that analyzing HSIP results is possible
only if States are reporting back on the same data years and performance
measures. He also observed it would be difficult to normalize data among rural
and urban States, but that comparison of improvement types across functional
classes of roads could allow for measurement of aggregate program impact.
FHWA officials also observed that the inconsistent data and the limited modeling
tools available make it difficult to isolate the effect of specific HSIP-funded
infrastructure improvements from other infrastructure and behavioral factors that
also contribute to crashes, fatalities, and serious injuries. For example, a crash
could be caused by multiple factors such as a poorly designed intersection, a driver
who is texting, and a wet road surface.

FHWA has tried alternative methods of evaluating HSIP results nationwide but
remains limited to using annual data reported by the States for periodically
identifying problems or best practices. For example, FHWA compared obligation
rates from 2006 through 2009 to 3-year averages of fatality rates among the States
from 2000 through 2008 but found no correlation. FHWA also calculated a
14:1 return on investment for HSIP and reported this in agency budget documents,
but the calculation relies on several major assumptions (e.g., the effectiveness of a
project does not change over time) and is based on data from a small number of
States. Accordingly, this calculation is not necessarily a reliable indicator of the
program’s national impact.

13
     “Highway Safety Improvement Program, Final Rule.” Federal Register Vol. 73. No. 248 (December 24, 2008)
     p.78959.
                                                                                                                          8


FHWA Has Efforts Underway To Address Data Consistency but Can
Improve Its Online Reporting Tool
FHWA deployed its online reporting tool and associated training in 2011 that
could lead to more consistency in the types and amount of HSIP data that States
annually report. Use of this tool is not required, but 16 States 14 used the tool in
2011 to submit HSIP reports, and FHWA stated 27 States used the tool in 2012.
Based on our review, all but one of the reports generated with the online reporting
tool met requirements and followed guidance. However, FHWA can do more to
enhance this tool as we found the reports it generated were sometimes difficult to
read with missing information, poor formatting, and error messages.

While the online tool prompts users with identical requests for project evaluation
data, there are still inconsistencies in what States report. For example, in 2011 one
State provided data for nine projects while another provided data for only one
project. Also, when States provide data through the online reporting tool, the
information is often uploaded in a format (i.e., Adobe PDF) that does not allow the
data to be easily compiled or manipulated to conduct analysis. These shortcomings
obscured the information States were attempting to communicate about their
implementation of HSIP.

Officials in six States we interviewed noted the positive impact of the online tool’s
consistent reporting template, but they also noted problems that could discourage
States from abandoning their existing, individualized report processes in favor of
using the tool. One problem State officials noted is that the tool is not easy to use.
The tool generated truncated answers to questions that did not flow from one to
the next and did not print in a readable format. Officials from two States we
interviewed were also concerned that the tool requires sharing of personal
information by staff (e.g., photo identification, home address) to set up access,
which could lead to issues regarding privacy and security of personally
identifiable information. Another significant criticism of the tool among State
officials was that the online reporting tool does not facilitate dissemination of
State HSIP data. One State could not upload data it wanted to include in its annual
report that was not technically required and did not find that changes to the tool’s
data fields and codes were explained by FHWA in updated guidance or other
communications. Another found that answers provided in the pull-down menus for
some of the fields did not fit the information State officials wanted to report, so
staff had to choose the response that was the closest to the State’s answer, but not
necessarily correct. Unless FHWA modifies the online reporting tool to address
some of these concerns, it may not be widely used.


14
     Sixteen States submitted their reports using the online reporting tool in 2011, but 2 additional States submitted their
     reports both online and in hard copy. Our office received only the hard copies of these reports.
                                                                                                                        9


Another FHWA effort to improve data consistency is use of its Model Inventory
of Roadway Elements (MIRE). 15 MIRE defines the critical inventory and traffic
data elements needed to analyze safety data using SafetyAnalyst or similar
programs. In August 2011, FHWA issued HSIP guidance on which MIREs
(fundamental data elements) should be collected and reported for HSIP. Use of
these 38 fundamental data elements was not required, but FHWA identified them
as ways to help States collect more consistent and useful highway safety data (i.e.,
data on crashes, roadways, and traffic). Among the States we interviewed, 1 State
collected data for significantly more fundamental data elements—31 of the
38 elements—to identify excess crashes on its roads than the other States. FHWA
requires States to collect data on 16 of the elements on all Federal-aid highways
for the Highway Performance Monitoring System. 16 Using a uniform set of
fundamental data elements allows comparison of crashes throughout the United
States.

FHWA Has an Opportunity To Leverage MAP-21 Data Improvements
To Regularly Assess HSIP
MAP-21 requires DOT to establish performance measures that cut across several
programs, including those focused on safety. HSIP is the primary FHWA program
that will contribute to the new MAP-21 safety goal to reduce fatalities and serious
injuries. 17 Under MAP-21, DOT is required to define specific performance
measures and monitor States’ progress toward achieving their targets for these
measures. MAP-21 also requires States to identify performance targets, collect and
analyze data, and report progress toward meeting targets as part of the agency-
wide performance management effort. Preliminary work toward meeting these
requirements is underway. FHWA’s four related performance measures are the
number of fatalities, number of serious injuries, fatalities per vehicle miles
traveled, and serious injuries per vehicle mile traveled. FHWA officials stated that
they will work closely with the National Highway Traffic Safety Administration to
define these performance measures. States will set their own targets for these four
measures, and FHWA is responsible for monitoring States’ progress.



15
     In 2007, FHWA released a report listing roadway inventory and traffic elements critical to safety management.
     There are now over 200 elements on this comprehensive list which are divided among 3 broad categories: roadway
     segments, roadway alignment, and roadway junctions. These elements include those needed for SafetyAnalyst—a set
     of software tools from AASHTO used by State and local highway agencies to identify safety improvement needs and
     analyze results.
16
     The Highway Performance Monitoring System is a nationwide inventory system that includes data for all of the
     Nation’s public road mileage as annually certified by the States. The data reflect the extent, condition, performance,
     use, and operating characteristics of the Nation’s highways.
17
     MAP-21 established seven national goals: safety, infrastructure condition, congestion reduction, system reliability,
     freight movement and economic vitality, environmental sustainability, and reduced project delivery delays. The law
     requires DOT to establish, with input from States and local agencies, performance measures for these goals through a
     rule within 18 months.
                                                                                   10


HSIP will play an important role in reporting State progress toward meeting the
targets set for these performance measures. Monitoring States’ progress toward
FHWA’s four safety measures—and potentially reporting on progress at a national
level—will require collection and assessment of consistent safety data that the
Agency currently lacks. Therefore, FHWA faces the challenge of continuing to
assess and enhance its ongoing efforts to improve HSIP data consistency as they
will be important to helping it ensure States meet MAP-21 performance targets.
MAP-21 sets penalties for not meeting safety targets, underscoring the importance
of making improvements to States’ existing data. If a State does not make
significant progress toward targets for reducing fatalities or serious injuries within
a certain period, then that State must dedicate a specific amount of funding to
safety-related projects, based on its HSIP funding for the prior year, and prepare
an annual implementation plan.

Performance measures defined through the MAP-21 process could provide a
common metric to assess HSIP results, though their development is only in the
early stages. Currently, in their HSIP annual reports, States are required only to
describe how improvements contribute to safety goals identified individually by
each State. MAP-21 requires DOT to set performance measures for a national
safety goal set by Congress. For example, in 2011 most States reported either the
number of fatalities or number of fatal crashes on the general highway system and
chose between providing multi-year trend data or a multi-year average ending with
the most recent year of available data. FHWA officials stated they expect to have
the opportunity to ensure that States have a common basis for the four national
safety performance goals because MAP-21 requires DOT to consult with State
transportation departments, metropolitan planning organizations, and other
stakeholders to establish performance measures and standards. This requirement
may also lead to more consistency among the individual performance targets set
by the States, which could be an important step in facilitating FHWA’s evaluation
and reporting of nationwide HSIP results. FHWA has an opportunity to leverage
data improvements it makes to meet MAP-21 to better assess and report the
impact of HSIP. FHWA could use existing financial and performance data on
HSIP projects, combined with consistent and complete data on performance
targets and fatalities and serious injuries throughout the United States, to
eventually develop a more complete picture of HSIP’s impact on traffic safety.

CONCLUSION
HSIP has received significant funding increases and is FHWA’s primary means of
addressing the Department’s national safety goal with infrastructure
improvements. The data-driven nature of the program is consistent with the
broader performance management provisions of MAP-21 that require FHWA to
evaluate State progress toward meeting performance targets on reducing fatalities
and injuries. As a result, FHWA has an opportunity to enhance its use of the data
                                                                                 11


that States provide in their annual HSIP reports with new information being
developed on MAP-21 performance targets. In doing so, FHWA can strengthen its
efforts to evaluate the impact of billions in Federal funding directed specifically
toward reducing fatalities and serious injuries through safety-focused HSIP
infrastructure improvements.

RECOMMENDATIONS
We recommend that the Federal Highway Administrator:

1. Develop a plan with milestones to increase the use of the online reporting tool,
   improve the tool’s usability, and the readability of the resulting reports.

2. Develop and implement a plan to annually compile and report data, such as
   number, type, and cost of HSIP projects to compare HSIP’s national impact
   across years.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FHWA with our draft report on January 31, 2013. We received
technical comments from the Agency on February 13, 2013, and a formal response
on March 22, 2013. FHWA’s complete response is included as an appendix to this
report. FHWA concurred with both of our recommendations and provided us with
its plan and milestones, which fully addresses recommendation 1. FHWA also
provided its plan to annually compile and report data on HSIP’s national outcomes
in response to recommendation 2 and stated that it is currently implementing that
plan. Before closing this recommendation, we request that FHWA provide us with
a copy of its report within 10 days after its release.

ACTIONS REQUIRED
FHWA’s completed and planned actions for both recommendations are
responsive, and we consider recommendation 1 closed. We consider
recommendation 2 resolved but open pending receipt of FHWA’s report as
described above. We appreciate the courtesies and cooperation of FHWA
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-5630 or Wendy Harris, Program Director, at
(202) 366-2794.
                                         #
cc: DOT Audit Liaison, M-1
    FHWA Audit Liaison, HAIM-13
    NHTSA Audit Liaison, NPO-310
                                                                               12



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work between February 2012 and January 2013 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To assess the level of assistance FHWA provides to States in implementing HSIP,
we collected and evaluated the policies, procedures, tools and guidance FHWA
provided to States for execution of the HSIP. We paid particular attention to
guidance FHWA provided on the quality, consistency, and use of crash data to
identify performance goals and select HSIP-funded projects. We analyzed pre- and
post-SAFETEA-LU HSIP requirements and associated agency rules to identify
differences and the current extent of FHWA authority.

To review States’ implementation of HSIP under FHWA’s guidance, we used a
consistent methodology to analyze the annual reports each of the States and the
District of Columbia submitted in 2011. This analysis focused on how closely the
reports follow program requirements and FHWA’s guidance. We also examined
the data States reported on their projects, highway safety indicators, and project
assessments to identify any variation and use of best practices. We interviewed
and gathered documentation from FHWA officials responsible for implementing
the HSIP to determine how the information provided annually by the States is used
to evaluate the impact of the program. We also gathered financial reports from
FHWA and used them to identify current funding levels and obligation rates.

To verify whether FHWA provided comprehensive guidance and adequate
technical assistance to the States to effectively implement the HSIP, we
interviewed State officials and FHWA Division officials from a statistically
selected sample of 9 of 51 States. As part of these interviews, we gathered
information on the guidance and tools State officials used when selecting,
implementing, and evaluating HSIP projects (e.g., the Online Reporting Tool, the
Peer to Peer Program, or the Self Assessment Tool). We also asked about any gaps
or weaknesses in FHWA’s program support noted by the States or Divisions.

To identify methods States use to evaluate the impact of specific HSIP-funded
projects, we reviewed the project assessment information reported in the 2011
annual reports of the 27 States that conduct project assessments. We also
consulted with experts inside OIG to identify existing statistical methods and/or
best practices for quantifying impact in environments where crash causation
results from multiple factors and the type of data these methods require.


Exhibit A. Scope and Methodology
                                                                                13




EXHIBIT B. EXAMPLES OF FHWA GUIDANCE
                            Program Implementation
HSIP Funds 10 Percent Flexibility Implementation Guidance (December 2006)
Highway Safety Improvement Program Manual (January 2010)
HSIP Assessment Toolbox Manual (August 2010)
Self Assessment Tool Manual (August 2011)
HSIP Project Eligibility (August 2011)
HSIP MAP-21 Interim Eligibility Guidance (September 2012)
                                       Data
Safety Analyst Software Tools Guidance (July 2010)
Safety Performance Function Development Guidance
Crash Data Improvement Program Guide (April 2010)
Model Inventory of Roadway Elements Guidance and Manual (October 2010)
Guidance for Roadway Safety Data to Support HSIP (June 2011)
Guidance Memorandum on Fundamental Roadway and Traffic Data Elements to
Improve HSIP (August 2011)
                                    Reporting
Highway Safety Improvement Program Reporting Guidance (May 2009)
Online Reporting Tool Webinar and Outline
                                   Planning
Strategic Highway Safety Plans: A Champion’s Guide to Saving Lives (April
2006)
Developing Future Stewardship/Oversight Agreements Memorandum (July 2006)
                             Peer-to-Peer Exchange
Peer-to-Peer Program Guidelines
Peer-to-Peer Program Technical Assistance including peer referrals and facilitated
peer exchanges
                                   Training
Topic-specific FHWA Courses including HSIP Program Overview, New
Approaches to Highway Safety Analysis, SHSP Development




Exhibit B. Examples of FHW A Guidance
                                                               14



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

Wendy Harris                            Program Director

Regan Maund                             Project Manager

Michael English                         Senior Analyst

Peter Barber                            Analyst

Doris Kwong                             Analyst

Michelle Starkey                        Auditor

Petra Swartzlander                      Senior Statistician

Megha Joshipura                         Statistician

Seth Kaufman                            Senior Counsel

Andrea Nossaman                         Senior Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                           15


           APPENDIX. AGENCY COMMENTS




                                                 Memorandum
        U.S. Department
        of Transportation
        Federal Highway
        Administration




Subject:     INFORMATION: Federal Highway                              Date: March 22, 2013
             Administration (FHWA) Response to
             Office of Inspector General (OIG)
             Draft Report on FHWA’s Highway
             Safety Improvement Program (HSIP)

From:        Victor M. Mendez                                               In Reply Refer To:
             Administrator                                                           HCFM-1

To:          Calvin L. Scovel III
             Inspector General (J-1)

               The FHWA’s effective leadership of the HSIP is demonstrated through OIG’s
               finding that 98 percent of States complied with annual program requirements.
               The FHWA provides clear and informative guidance regarding highway safety
               data use, strategic highway safety planning and development, and safety data
               reporting, and will continue this practice through the implementation of the
               Moving Ahead for Progress in the 21st Century Act (MAP-21). This guidance
               helps States meet statutory requirements, promotes shared best practices across
               States, and encourages States to continuously improve safety programs. The
               FHWA appreciates OIG’s acknowledgement of the effectiveness of this
               guidance and the assistance provided by the Agency as reflected by the positive
               feedback State officials offered regarding the broad range of services provided
               by the HSIP.

               The FHWA is using all means available to further improve highway safety, and
               HSIP provides important tools to accomplish this goal. Reducing fatalities and
               serious injuries on the Nation’s roadways is a complex multi-faceted challenge
               further complicated by the analytical difficulties in attributing declining
               fatalities to any individual program. We will continue to make the best possible


           Appendix. Agency Comments
                                                                               16


  use of available data and coordinate with other Agencies in DOT to ensure that
  HSIP activities complement and support the Department’s other highway safety
  programs as we work toward the common objective of reducing fatalities and
  injuries. The FHWA also provides a broad range of technical assistance
  including Web-based training courses, topic based webcasts, and the Roadway
  Safety Peer-to-Peer (P2P) Program. The P2P Program assists State agencies in
  the development and implementation of effective strategies to tackle a wide
  range of specific issues from pedestrian safety to high risk rural roads.

  The FHWA is continually improving the HSIP and agrees with the OIG draft
  HSIP report recommendations. As discussed with OIG, the Office of Safety was
  in the early stages of conducting a program review when OIG began its
  independent audit. The information from OIG’s analysis will be a valuable
  resource for FHWA’s Office of Safety in conducting its ongoing internal
  program review to evaluate the performance of the HSIP.

  OIG Recommendations and FHWA Responses

  Recommendation 1: Develop a plan with milestones to increase the use of the
  online reporting tool, improve the tool’s usability, and the readability of the
  resulting reports.

  FHWA Response: Concur. The FHWA has developed a formal plan and
  established milestones to improve the readability of reports produced from the
  HSIP online reporting tool and to improve the overall use and usability of the
  tool itself. This plan, which FHWA began implementing in November 2012,
  includes strategies for user outreach, such as training and tool marketing, and
  strategies for identifying ways to improve the tool. In addition, the plan
  includes an implementation schedule as well as metrics to track progress in
  meeting established milestones. We request that OIG close this
  recommendation upon receipt of this response.

  Recommendation 2: Develop and implement a plan to annually compile and
  report data, such as number, type, and cost of HSIP projects to compare HSIP’s
  national impact across years.

  FHWA Response: Concur. The FHWA has developed, and began
  implementing in November 2012, a plan to compile and report HSIP program
  data such as number, type, and cost of projects and compare these outputs
  nationally across years. The annual report will be based on information
  provided through States’ annual HSIP reports as well as other supplementary
  information. The first annual report will summarize baseline information and
  subsequent annual reports will compare program outputs across years. We


Appendix. Agency Comments
                                                                               17


  request that OIG close this recommendation upon receipt of this response.


                                     -- -- -- -- --

  The FHWA appreciates the opportunity to respond to the draft report. If you
  have any questions or comments regarding this response, please contact
  Elizabeth Alicandri, Director of Office of Safety Programs, Office of Safety, at
  202-366-6409.




Appendix. Agency Comments
